TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 The Compliance Initiative Projects Program
                  Performed Some Examinations After the
                    Projects Expired or Were Terminated



                                         June 23, 2009

                            Reference Number: 2009-30-085




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   June 23, 2009


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – The Compliance Initiative Projects Program
                               Performed Some Examinations After the Projects Expired or Were
                               Terminated (Audit # 200830005)

 This report presents the results of our review to determine whether the Small
 Business/Self-Employed Division is meeting its goal of identifying areas of noncompliance and
 controlling returns for Compliance Initiative Projects (CIP).1 This audit was conducted as part of
 the Treasury Inspector General for Tax Administration’s Fiscal Year 2008 Annual Audit Plan
 under the major management challenge of Tax Compliance Initiatives.

 Impact on the Taxpayer
 The CIP Program identifies and examines tax returns from a group of taxpayers (e.g., a particular
 type of occupation, tax issue, or tax return) that may have a specific area of tax noncompliance.
 However, the CIP Program was not effectively managed or monitored to prevent new
 examinations from being started after the CIP authority expired or the project was terminated.
 We identified 134 unique taxpayer accounts that were subjected to examinations after the
 projects expired or were terminated, which potentially resulted in violations of the taxpayers’
 rights to privacy and security.




 1
   Any activities involving contact with specific taxpayers within a group, using either internal or external data to
 identify potential areas of noncompliance within the group, for the purpose of correcting the noncompliance. CIPs
 refer to activities formerly categorized as Return Compliance Programs, Information Gathering Projects, and
 Compliance 2000 Projects, etc.
                      The Compliance Initiative Projects Program Performed
                      Some Examinations After the Projects Expired or Were
                                           Terminated


monitor the Program. The Director, Examination Planning and Delivery, should also 2) create a
report that alerts management about projects with pending expiration and termination dates and a
report that lists any examinations that were started after the project expiration or termination
dates, and 3) ensure that the National CIP Database is current and accurate and the contents are
appropriate for effective monitoring of expiration and termination dates.

Response
IRS management agreed with all of our recommendations. The Director, Examination Planning
and Delivery, will 1) ensure that the CIP Handbook is updated to address the Headquarters CIP
Program Analyst’s responsibilities and provide a description of the National CIP Database and
how it should be used to monitor the CIP program, and 2) create reports that alert management
about projects with pending expiration and termination dates and list any examinations that were
sent to field offices after the project expiration or termination dates. The Internal Revenue
Manual will be updated to clearly indicate that additional cases should not be sent to the field
offices after the project’s expiration or termination date. In addition, the Director, Examination
Planning and Delivery, will 3) update the CIP Handbook to require reviews for accuracy and
currency of the data in the National CIP Database at least annually. Although IRS management
agreed with the recommendations and plans to take corrective actions, they did not agree that
starting an examination after a project’s expiration or termination date constituted a violation of
taxpayers’ rights to privacy and security. IRS management acknowledged that submitting timely
extensions and terminations is important to the proper administration of the CIP Program, but
contended that once an examination has started, they are obligated to complete it even after the
expiration or termination date of the project. Management’s complete response to the draft
report is included as Appendix V.

Office of Audit Comments
At the time of our review, the Internal Revenue Manual prohibited Examination function
employees from beginning new examinations after the project had expired when taxpayer contact
had not yet been made. The examinations we identified were examinations where no taxpayer
contact had been made and the examinations had not yet started prior to the expiration or
termination date of the project. Therefore, we did not adjust the outcome measures in this report.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations), at (202) 622-8510.




                                                                                                  3
                              The Compliance Initiative Projects Program Performed
                              Some Examinations After the Projects Expired or Were
                                                   Terminated




                                               Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Area Offices Received Proper Approval for Authorizations and
          Maintained Adequate Physical Security for Tax Returns.............................Page 3
          Some Examinations Were Conducted After Compliance Initiative
          Projects Had Expired or Were Terminated...................................................Page 3
                    Recommendations 1 and 2: ................................................Page 6

                    Recommendation 3: .................................................................... Page 7


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 8
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
          Appendix IV – Outcome Measures...............................................................Page 12
          Appendix V – Management’s Response to the Draft Report .......................Page 13
       The Compliance Initiative Projects Program Performed
       Some Examinations After the Projects Expired or Were
                            Terminated




                  Abbreviations

ACIS        Audit Information Management System Centralized Information
            System
CIP         Compliance Initiative Project
IRM         Internal Revenue Manual
IRS         Internal Revenue Service
PSP         Planning and Special Procedures
                          The Compliance Initiative Projects Program Performed
                          Some Examinations After the Projects Expired or Were
                                               Terminated




                                             Background

The Small Business/Self-Employed Division Examination function examines tax returns to
promote the highest degree of voluntary compliance by taxpayers. The Compliance Initiative
Projects (CIP) 1 Program is one method used to identify and examine tax returns from a group of
taxpayers (e.g., a particular type of occupation, tax issue, or tax return) that may have a specific
area of tax noncompliance. Some CIP examples that have been worked include projects on
alimony and projects on the child care credit. However, the CIP Program is just one part of the
entire Examination function plan and makes up only about 1 percent of the entire Examination
Program.
These areas of possible noncompliance can originate in the field or can be identified by local and
national CIP personnel. When an area of possible noncompliance is identified, an authorization
must be approved by the appropriate Examination function Planning and Special Procedures
(PSP) Manager/Director before compliance contacts with taxpayers are made.
An initial CIP authorization is limited to a maximum of 50 tax returns and must include an
expiration date, usually not more than 12 to 18 months from the authorization date. The initial
CIP can be terminated before the expiration date if the noncompliance has been addressed,
resources are not available, results are not productive, or the project is no longer viable. They
may also extend the initial CIP for up to 6 months when additional time is required to complete
the examinations of the original 50 tax returns. A productive CIP may be converted to an
advanced CIP at any time, for which there is no limit on the number of returns or the amount of
time it can remain open. However, the project must still have an expiration date that is agreed
upon at the time of expansion.
Local CIP coordinators are responsible for initiating and perfecting 2 local CIP authorizations;
perfecting Midwest Audit Control System 3 filters to identify the specific population of tax
returns that will be examined under the CIP; assigning Audit Information Management System 4




1
  Any activities involving contact with specific taxpayers within a group, using either internal or external data to
identify potential areas of noncompliance within the group, for the purpose of correcting the noncompliance. CIPs
refer to activities formerly categorized as Return Compliance Programs, Information Gathering Projects, and
Compliance 2000 Projects, etc.
2
  Making something as good as possible or bringing to completion.
3
  An Examination database that contains tax returns for every taxpayer for the last 3 tax years.
4
  A computer system that traces examination results through final determination of tax liability including Appeals
and the Tax Court.
                                                                                                              Page 1
                         The Compliance Initiative Projects Program Performed
                         Some Examinations After the Projects Expired or Were
                                              Terminated



and Examination Returns Control System 5 tracking codes for monitoring purposes; preparing
status reports and termination reports to ensure requirements are met; providing guidance,
assistance, oversight, and monitoring of all CIP activity to ensure activities are completed timely,
procedures are followed, and objectives are met; and ensuring data are returned or disposed of
timely. The Headquarters CIP Program Analyst is responsible for monitoring the local projects
and the overall status of the CIP Program and helps determine if a local project should be
expanded nationwide.
The Examination function controls the tax returns selected for review for both national and local
CIPs using the Audit Information Management System and the Audit Information Management
System Centralized Information System (ACIS). 6 The ACIS is a sub-component of the Audit
Information Management System and is periodically reconciled and updated by direct interface.
The PSP function also uses the National CIP Database to capture information not included in the
ACIS.
This review was performed at the Internal Revenue Service (IRS) office in Vernon Hills, Illinois,
with site visitations in the Gulf States Area PSP office in Nashville, Tennessee, and in the
Central Area PSP office in Philadelphia, Pennsylvania, during the period October 2007 through
June 2008. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




5
  An automated inventory management system that is used for controlling tax returns and technical time charges
from the time returns arrive in the operating division until they are closed on the Audit Information Management
System.
6
  A computer system that tracks project activity and results.
                                                                                                            Page 2
                          The Compliance Initiative Projects Program Performed
                          Some Examinations After the Projects Expired or Were
                                               Terminated




                                       Results of Review

Area Offices 7 Received Proper Approval for Authorizations and
Maintained Adequate Physical Security for Tax Returns
When the IRS identifies an area of possible tax noncompliance, the appropriate Examination
function PSP Manager or Director must approve a CIP before any contact is made with the
taxpayers. This is necessary to ensure taxpayer rights to privacy and security are protected and
also helps to ensure the IRS’ resources are used productively. Failure to obtain approval could
result in tax examinations being performed after the expiration or termination date, duplication of
effort by IRS employees, and a missed opportunity to improve tax compliance for a larger
number of taxpayers. We judgmentally selected 53 of 149 CIP authorizations (dated from
October 2005 to July 2008) and determined that the appropriate PSP Manager had properly
approved all of the projects. These results suggest the IRS has sufficient controls in place to
ensure procedures are being followed prior to contacting taxpayers and initiating the
examinations.
In addition, to help protect taxpayers’ rights to privacy and security, the Internal Revenue
Manual (IRM) requires CIP tax returns to be secured in locked containers and the keys secured
in a separate locked container. The tax returns in both Area Offices that we visited were locked
in either filing cabinets or a locked storage room. Keys were also maintained by the office
manager and in a separate locked desk at each office. Based on this, we believe the IRS
followed procedures for securing tax returns at the locations we visited during this review.

Some Examinations Were Conducted After Compliance Initiative
Projects Had Expired or Were Terminated
All CIP authorizations have an expiration date to prevent employees from starting new
CIP-related examinations for an indefinite period of time. The examination of new tax returns
after the expiration or termination date could subject taxpayers to a potential violation of their
rights to privacy and security. Consequently, the IRM prohibits Examination function
employees from beginning new examinations after the CIP authorization period has expired.
After a project’s expiration date, there is a period of time where Examination function employees
may continue working on tax examinations that had been started before the expiration date. This
period ends when the project’s termination report is issued, and the date that the termination

7
 A geographic organizational level used by IRS business units and offices to help their specific types of taxpayers
understand and comply with tax laws and issues.
                                                                                                             Page 3
                      The Compliance Initiative Projects Program Performed
                      Some Examinations After the Projects Expired or Were
                                           Terminated



reported to senior management. Further, the IRS has not developed an effective control for
detecting and preventing examinations after the project expiration or termination date.
Although the CIP Program is discretionary and only a small percentage of the overall
Examination plan, it is necessary that monitoring, tracking, and reporting of the Program’s
activities are performed regularly. Management needs to have accurate information about the
goals and outcomes of the Program to make decisions, ensure taxpayers’ rights to privacy and
security are protected, and balance the need for compliance with the tax laws.

Recommendations
The Director, Examination Planning and Delivery, should:
Recommendation 1: Update the CIP section of the IRM to define the specific responsibilities
and expectations of the Headquarters CIP Program Analyst and the CIP Program. The updated
guidance should address responsibilities for establishing goals, monitoring progress, and
reporting results. In addition, the CIP IRM should describe the purpose of the National CIP
Database and provide guidance on how it should be used to monitor the Program.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, Examination Planning and Delivery, will ensure that the CIP Handbook is
       updated to address the Headquarters CIP Program Analyst’s responsibilities for
       monitoring progress and reporting results for CIP projects, and the update will provide a
       description of the National CIP Database and guidance on how it should be used to
       monitor the CIP program.
Recommendation 2: Create a report that alerts management about projects with pending
expiration and termination dates and a report that lists any examinations that were started after
the project expiration or termination dates.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, Examination Planning and Delivery, will create a report that alerts management
       about projects with pending expiration and termination dates and a report that lists any
       examinations that were sent from the Planning and Special Procedures function to field
       offices after the project expiration or termination dates. The IRM will be updated to
       clearly indicate that additional cases should not be sent to the field offices after the
       project’s expiration or termination date. Although IRS management agreed with the
       recommendations and plans to take corrective actions, they did not agree that starting an
       examination after a project’s expiration or termination date constituted a potential
       violation of taxpayers’ rights to privacy or security. IRS management acknowledged that
       submitting timely extensions and terminations is important to the proper administration
       of the CIP Program, but contended that once an examination has started, they are
       obligated to complete it even after the expiration or termination date of the project.

                                                                                             Page 6
                    The Compliance Initiative Projects Program Performed
                    Some Examinations After the Projects Expired or Were
                                         Terminated



      Office of Audit Comments: At the time of our review, the IRM prohibited
      Examination function employees from beginning new examinations after the project had
      expired when taxpayer contact had not yet been made. The examinations we identified
      were examinations where no taxpayer contact had been made and the examinations had
      not yet started prior to the expiration or termination date of the project. Therefore, we did
      not adjust the outcome measures in this report.
Recommendation 3: Ensure the National CIP Database is current and accurate and that the
contents are appropriate for effective monitoring of expiration and termination dates.
      Management’s Response: IRS management agreed with this recommendation. The
      Director, Examination Planning and Delivery, will update the CIP Handbook to require
      reviews for accuracy and currency of the data in the National CIP Database at least
      annually.




                                                                                            Page 7
                          The Compliance Initiative Projects Program Performed
                          Some Examinations After the Projects Expired or Were
                                               Terminated



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Small Business/Self-Employed
Division is meeting its goal of identifying areas of noncompliance and controlling returns for the
CIPs. 1 To accomplish our objective, we:
I.       Evaluated the effectiveness of controls and procedures used in selected Area Offices 2 to
         authorize the CIPs.
         A. Determined how the CIPs were identified.
             1. Interviewed two Area Office managers to determine the process for identifying
                noncompliance areas in both individual and industry taxpayer segments that are
                forwarded for project approval.
         B. Evaluated the CIP approval process.
             1. Interviewed Area Office managers to determine if the CIP approval process was
                timely.
             2. Reviewed a judgmental sample 3 of 53 of 149 CIP authorizations to determine if
                authorizations were properly approved and to identify any delays in the approval
                process.
II.      Evaluated controls to protect taxpayer privacy and security.
         A. Evaluated the physical security controls over CIP tax returns in Nashville, Tennessee
            (Gulf States Area Office), and Philadelphia, Pennsylvania (Central Area Office).
         B. Determined if CIP tax returns were properly secured.




1
  Any activities involving contact with specific taxpayers within a group, using either internal or external data to
identify potential areas of noncompliance within the group, for the purpose of correcting the noncompliance. CIPs
refer to activities formerly categorized as Return Compliance Programs, Information Gathering Projects,
Compliance 2000 Projects, etc.
2
  A geographic organizational level used by IRS business units and offices to help their specific types of taxpayers
understand and comply with tax laws and issues.
3
  The sample was judgmental because the overall sample consisted of three separate samples. We sampled 17
authorizations from the Gulf States Area Office, 6 from the Central Area Office, and 30 additional ones from the list
of 149 authorizations.
                                                                                                             Page 8
                          The Compliance Initiative Projects Program Performed
                          Some Examinations After the Projects Expired or Were
                                               Terminated



III.     Evaluated the effectiveness of the management information system for the CIP Program.
         A. Evaluated the internal controls used to prevent examinations after the expiration or
            termination date.
         B. Determined whether all CIPs on the Examination function’s Audit Information
            Management System 4 were also on the ACIS. 5
         C. Determined whether all CIPs on the ACIS were controlled on the National CIP
            Database.
         D. Reviewed 24 CIPs from the National CIP Database to determine whether tax returns
            related to expired CIPs were still being started after the termination date or more than
            6 months after the expiration date of the project.




4
  A computer system that traces examination results through final determination of tax liability including Appeals
and the Tax Court.
5
  A computer system that tracks project activity and results.
                                                                                                             Page 9
                    The Compliance Initiative Projects Program Performed
                    Some Examinations After the Projects Expired or Were
                                         Terminated



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Director
Amy L. Coleman, Audit Manager
Lynn Rudolph, Lead Auditor
Frank Maletta, Auditor




                                                                                      Page 10
                    The Compliance Initiative Projects Program Performed
                    Some Examinations After the Projects Expired or Were
                                         Terminated



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Communications, Liaison, and Disclosure SE:S:CLD
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Examination Planning and Delivery, Small Business/Self-Employed Division
SE:S:E:EPD
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                     Page 11
                            The Compliance Initiative Projects Program Performed
                            Some Examinations After the Projects Expired or Were
                                                 Terminated



                                                                                           Appendix IV

                                       Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
       •   Taxpayer Privacy and Security – Actual; 134 taxpayer accounts (see page 3).

Methodology Used to Measure the Reported Benefit:
We compared the expiration dates of Fiscal Years 2006 and 2007 projects on the National CIP
Database to the examination start dates for the same projects listed on the Audit Information
Management System 1 and identified 20 CIPs involving 134 taxpayers where new examinations
started after the CIPs had expired. We determined that the examination of these 134 taxpayer
accounts potentially violated the taxpayers’ rights to privacy and security.

Type and Value of Outcome Measure:
       •   Reliability of Information – Actual; 517 taxpayer accounts (see page 3).

Methodology Used to Measure the Reported Benefit:
We compared the National CIP Database Fiscal Years 2006 and 2007 projects to the same
projects listed on the AIMS and identified 4 CIPs involving 517 taxpayers where new
examinations appeared to have started after the CIPs had expired. The IRS later provided
documentation that showed the projects were extended, but the database was not updated timely.




1
    A computer system that controls tax returns that have been selected for examination.
                                                                                                Page 12
      The Compliance Initiative Projects Program Performed
      Some Examinations After the Projects Expired or Were
                           Terminated



                                                   Appendix V

Management’s Response to the Draft Report




                                                         Page 13
The Compliance Initiative Projects Program Performed
Some Examinations After the Projects Expired or Were
                     Terminated




                                                   Page 14
The Compliance Initiative Projects Program Performed
Some Examinations After the Projects Expired or Were
                     Terminated




                                                   Page 15
The Compliance Initiative Projects Program Performed
Some Examinations After the Projects Expired or Were
                     Terminated




                                                   Page 16
